BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.

Records

JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of Amici
Curiae the Public Interest Law Center and Five
Affiliated Lawyers' Committees in Support of
Respondents in 19-454, Donald J. Trump, President of
the United States, et al. v. Pennsylvania, et al., were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 8th day
of April, 2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A. KERSHNER, J.D.

Glenn J. Moramarco
Counsel for the State of New Jersey
Office of Attorney General of New Jersey
Department of Law & Public Safety
25 Market Street
Richard J. Hughes Complex
Trenton, NJ 08625
(609) 376-3235
glenn.moramarco@law.njoag.gov
Mark Leonard Rienzi
Counsel for Little Sisters of the Poor Saints Peter and
Paul Home
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Respondents

Thomas W. Hazlett
(Counsel of Record)
Stephen J. Kastenberg
Juliana B. Carter
Mansi G. Shah
Spencer Hill
BALLARD SPAHR LLP
1735 Market Street, 51st Fl.
Philadelphia, PA 19103
215.665.8500
HazlettT@ballardspahr.com
William Alden McDaniel, Jr.
BALLARD SPAHR LLP
300 East Lombard Street, 18th Fl.
Baltimore, MD 21202
410.528.5600

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 8, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN rJ GALLAGHER
Nol,,, Y f .1bllc, Slate of Ohio
My '":01 ,:mlss1on Expires
February 14, 2023

